                      '\       i

          I      1                  Closeout of M91110043

               By letter dated November 6, 1991,j -                    informed OIG
                that it had completed an inquiry of alleged misconduct and intended
                to begin an investigation related to Grant No.                   At
              r e q u e s t , OIG deferred the investiqation to them. The
                allegation of misconduct was made by             -
              0               (the complainant), a 0 faculty member in the
                Dept .                     against                   (the subject),
                a gra?uate   student in the Department                      4 The
                alleged misconduct involved (1) threefo
                                                      -
                                                      us             papers without
     It
                the complainant's knowledge or consent; and (2) three instances of
                fraudulent representation of experimental results.'-(nO
 ,            ,         the OIG r   e   c   e   i   v    e  d "Final Report of The
                Dean of the University Faculty on the Investigation of Academic
               Misconduct on the part ofa                  ~
              As described in its report, the investigative committee evaluated
              each of the complainant's six specific allegations and concluded
              that no academic misconduct occurred. Specifically, regarding the
              three papers, the committee found that (1) one submission made
              without consulting the complainant was unscholarly behavior but not
              plagiarism; (2) the second submission was based on implied
              permission by the complainant; and (3) the third paper was not a
I(            basis for misconduct because it existed only on the subject's
              computer as an unsubmitted working draft that listed three co-
              authors, including both the subject and the complainant. Regarding
              experimental results, the investigative committee found that (1)
              contrary to the allegation that the subject preselected input to an
              experiment in order to achieve a desired result, the complainant
              failed to provide adequate supervision to avoid what the committee
              found to be poor methodology rather than misconduct; (2) instead
              of the subject misleading the complainant as alleged, there was
              merely misunderstanding, caused by mutual failure of the subject
              and complainant to co-operate and communicate with each other; and
              ( 3 ) contrary to the complainant's allegation, the subject did not
              fake a graph.
              On April 14, 1992, the OIG notified                       that its
              procedures were fair and that their final investigative report was
              complete and accurate.        OIG accepted in
                                                                      _a
              Investigative report including its findings of "no aca emic
              misc~nduct~~ for each of six allegations and the reasons for
              reaching those conclusions.

               y~/iL.-mf+               Y.2u-7~.

              Concurrence:           et zA.+AwA ~ / ~ F / Y W
                             h e s JI zglenik
                             Assistant Inspector General for Oversight



                             ~ounselto the Inspector General
                                                    Or   </3
